No.

IN THE
SUPREME COURT OF THE UNITED STATES

CARLOS VELAZQUEZ-FONTANEZ

— PETITIONER

VS.

UNITED STATES OF AMERICA

RESPONDENT(S)

PROOF OF SERVICE
I, Carlos Velazquez-Fontanez
do swear or declare that on this dale
September
Z2. 2()21_. as required by Supreme Court Fade 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
U.S. SOLICITOR GENERALS OFFICE, RM.#5614-D0J, 950 Pennsylvania Ave., NW

....

"

Washington, DC 20530=0001

U.S. SUPREME COURT-CLERKS OFFICE -Washington,2[g43

1

I declare under penalty of perjury that, the foregoing is true and correct.
Executed on

September

, 20_21

Mr. Carlos Ve

uez-Fontanez

%

